Case: 21-10242 foment: 00515873954

Page: 1 (^~V Filed: 05/24/2021

®ritteij States Court of Appeals
for tlje Jftftl] Circuit
United States Court of Appeals
Fifth Circuit

No. 21-10242

FILED
May 24, 2021
Lyle W. Cayce
Clerk

Lou Tyler

Plaintiff—Appellant,
versus
PHH Mortgage Corporation, doing business as PHH
Mortgage Services; Deutsche Bank and National Trust
Company, as Trustee for Ameriquest Mortgage
Securities Inc., Asset-Backed Pass-Through
Certificates, Series 20004-R6; Ocwen Loan Services,
L.L.C.,
Defendants—Appellees.

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:19-CV-3007

Before Costa, Duncan, and Oldham, Circuit Judges.
Per Curiam:
This court must examine the basis of its jurisdiction, on its own
motion if necessary. Hill v. City ofSeven Points, 230 F.3d 167,169 (5th Cir.
2000). Pursuant to 28 U.S.C. § 2107(a) and Federal Rule of Appellate

Case: 21-10242

('

sument: 00515873954

Page: 2

(

'e Filed: 05/24/2021

No. 21-10242

Procedure 4(a)(1)(A), the notice of appeal in a civil case must be filed within
thirty days of entry of judgment.
In this case, the district court entered final judgment dismissing the
complaint on September 14,2020. Therefore, the final day for filing a timely
notice of appeal was October 14, 2020. The plaintiff's notice of appeal was
filed on March 9, 2021. When set by statute, the time limitation for filing a
notice of appeal in a civil case is jurisdictional. Hamer v. Neighborhood Hous.
Servs. of Chi., 138 S. Ct. 13,17 (2017); Bowles v. Russell, 551 U.S. 205, 214
(2007). The lack of a timely notice mandates dismissal of the appeal. United
States v. Garcia-Machado, 845 F.2d 492, 493 (5th Cir. 1988). Accordingly,
the appeal is DISMISS ED for want of jurisdiction.

2

Case: 21-10242

f^^ument: 00515873955

Page: 1

Filed: 05/24/2021

A

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

May 24, 2021
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW:
No'. 21-10242

Tyler v. PHH Mortgage Corporation
USDC No. 3:19-CV-3007

Enclosed is an order entered in this case.

Sincerely,
LYLE W.

By:
Mary Frances Yeager, Deputy Clerk
504-310-7686
Mr. Arthur Elex Anthony
Ms. Lou Tyler

\

i

/

Case 3:19-cv- 03007-f V Document 20 Filed 09/14/20 (^)elof2 PagelD 266
V

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION

LOU TYLER,

)
)
)
)
)
)

Plaintiff,
v.

PHH MORTGAGE CORPORATION, ei al.,

)
)

Defendants.

)

Civil Action No. 3:19-CV-3007-C-BT

ORDER
Before the Court are the Findings, Conclusions, and Recommendation of the United
States Magistrate Judge therein advising the Court that Defendants’ Motion to Dismiss should be
granted and that Plaintiffs claims should be dismissed with prejudice. Plaintiff filed timely
objections to the Magistrate Judge’s Findings, Conclusions, and Recommendation on
September 8, 2020.
The Court conducts a de novo review of those portions of the Magistrate Judge’s report or
specified proposed findings or recommendations to which a timely objection is made. 28 U.S.C.
§ 636(b)( 1 )(C). Portions of the report or proposed findings or recommendations that are not the
subject of a timely objection will be accepted by the Court unless they are clearly erroneous or
contrary to law. See United States v. Wilson, 864 F.2d 1219. 1221 (5th Cir. 1989).
After due consideration and having conducted a de novo review, the Court finds that
Plaintiff’s objections should be OVERRULED.1 The Court has further conducted an

1 To the extent Plaintiff seeks injunctive relief, the Court notes that Plaintiff has improperly
asserted said request within the filing of her objections.

Case 3:19-cv-03007^

t Document 20 Filed 09/14/20 1

>2 of 2 PagelD 267

independent review of the Magistrate Judge’s findings and conclusions and finds no error. It is
therefore ORDERED that the Findings, Conclusions, and Recommendation are hereby
ADOPTED as the findings and conclusions of the Court. For the reasons Stated therein,
Defendants’ Motion to Dismiss pursuant to Federal Rule of Civil Procedure 12(b)(6) is hereby
GRANTED and Plaintiffs claims are DISMISSED with prejudice. The Court WARNS
Plaintiff that she may be subject to additional sanctions should she persist in the filing of
duplicative and vexatious lawsuits
J

l

SO ORDERED this M "day of September, 2020.
r

\/l

1

MMINGS / (/
1I.TED STATES DISTRICT JUDGE
/

i

2

Case 3:19-cv-03007-

o

Document 18 Filed 09/04/20

1 of 18 PagelD 244

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
LOU TYLER,
Plaintiff,
No. 3:i9-cv-03Q07-C-BT

v.
PHH MORTGAGE CORPORATION,
DEUTSCHE BANK NATIONAL TRUST
COMPANY, AND OCWEN LOAN
SERVICING, LLC, et al.,
Defendants.

FINDINGS, CONCLUSIONS, AND RECOMMENDATION
OF THE UNITED STATES MAGISTRATE JUDGE
Before the Court in this mortgage foreclosure action is a Rule 12(b)(6) motion
to dismiss (ECF No. 7) filed by Defendants PHH Mortgage Corporation (PHH),
Deutsche Bank National Trust Company (Deutsche Bank), and Ocwen Loan Servicing,
LLC (Ocwen and collectively, “Defendants”). For the reasons stated, the Court should
GRANT Defendants’ motion and DIMISS Plaintiffs claims against them with
prejudice.
Background
This action arises out of foreclosure proceedings concerning Plaintiffs home on
Reitz Drive, in Cedar Hill, Texas (the “Property”). Notice 2 (ECF No. 1). This is
Plaintiffs sixth lawsuit against Ocwen and Deutsche Bank relating to the Property’s
foreclosure. Tyler v. Ocwen Loan Servs., LLC, et al., 3:i5-cv-97i-M-BK; Tyler v.
Ocwen Loan Servicing, LLC, et al., 3:i5-cv-ni7-N-BK; Tyler v. Ocwen Loan

1

Case 3:19-cv-03007-d

Document 18 Filed 09/04/20

k J 2 of 18 PagelD 245

Servicing, LLC, et al, 3:i6-cv-i698-L-BF; Tyler v. Ocwen Loan Servicing, LLC, et al.,
3:i6-cv-i836-G-BF; Tyler v. Ocwen Loan Servicing, LLC, et al., 3:i6-cv-2452-G-BK.
Plaintiff filed her first lawsuit in federal court on March 27, 2015, “alleging
claims against Defendants Ocwen and Deutsche Bank for breach of contract[ ] and
violating the statute of limitations to foreclose on the Property.” Mot. 7; Mot. App. 58 (EGF No. 8); Compl. (ECF No. 3), Tyler, 3:i5-cv-97i-M-BK (N.D. Tex. Mar. 27,
2015). However, Plaintiff had filed a duplicate lawsuit in state court on March 19,
2015, which Ocwen and Deutsche Bank removed to federal court. Mot. App. 13; Notice
(ECF No. 1), Tyler, 3:i5-cv-iU7-N-BK(N.D.Tex. Apr. 13,2015). In her March 19,2015
suit, Plaintiff brought claims for “(1) predatory lending, (2) mortgage fraud, (3)
violations of the Real Estate Settlement Procedures Act (“RESPA”), (4) robo-signing,
and (5) breach of contract”—“[i]n essence, . . . disputing] Defendants’ ability to
foreclose on her home” because “the action [was] barred by the statute of limitations
and ... Defendants fraudulently breached the parties’ contract and Defendants’ duty
of good faith and fair dealing.” FCR1-2 (ECF No. 16), Tyler, 3:15-CV-1117-N-BK (N.D.
Tex. July 30, 2015). Accordingly, Judge Lynn dismissed Plaintiffs March 27, 2015
lawsuit without prejudice on May 8, 2015, as duplicative of Plaintiffs pending March
19,2015 lawsuit. Mot. App. 11; Judgment (ECF No. 21), Tyler, 3:i5-cv-97i-M-BK(N.D.
Tex. May 8, 2015). And Judge Godbey later dismissed Plaintiffs March 19, 2015
lawsuit and accepted the magistrate judge’s recommendation stating that Plaintiffs
“RESPA, breach of contract, and quiet title claims include only conclusory allegations
and lack factual support” and that her “allegations of predatory lending, robo-signing
and good faith and fair dealing do not present cognizable claims and... fail as a matter
2

Case 3:19-cv-03007-<T~ ) Document 18 Filed 09/04/20

3 of 18 PagelD 246

of law.” FCR 8 (ECF No. 16), Tyler, 3:i5-cv-ni7-N-BK; Mot. App. 26; Judgment (ECF
No. 21), Tyler, 3:i5-cv-iH7-N-BK (N.D. Tex. Sept. 15, 2015).
Next on June 22, 2016, Plaintiff filed another lawsuit requesting the court
reconsider its prior judgment and alleging claims against Defendants for “harassment,
false or misleading representations, unfair practices, illegal attempt to foreclose,
deceptive practices, violations of [RESPA], and violations of recommendations made
by courts, agencies, and legal institutions.” FCR 1 (ECF No. 8), Tyler, 3:i6-cv-i698-LBF (N.D. Tex. July 19, 2016); Mot. App. 28-33; Compl. (ECF No. 3), Tyler, 3:i6-cv1698-L-BF (N.D. Tex. June 22, 2016). Judge Lindsay accepted the magistrate judge’s
recommendation that Plaintiff s claims were barred by res judicata and dismissed that
case with prejudice. Order (ECF No. 9), Tyler, 3:i6-cv-i698-L-BF (N.D. Tex. Aug. 16,
2016); Judgment (ECF No. 10), Tyler, 3:i6-cv-i698-L-BF (N.D. Tex. Aug. 16, 2016).
Plaintiff appealed the District Court’s determination that her appeal was not taken in
good faith and reasserted her claims that foreclosure on the Property would be
improper, but the Fifth Circuit dismissed her appeal as frivolous. Tyler v. Ocwen Loan
Servicing, L.L.C., 699 F. App’x 423, 424 (5th Cir. 2017) (per curiam); Mot. App. 5457-

On June 27, 2016, Plaintiff filed a petition against Defendants in the 193rd
District Court of Dallas County, Texas, which Defendants removed the next day.
Notice (ECF No. 1), Tyler, 3:i6-cv-i836-G-BF (N.D. Tex. June 28, 2016). In that
action, Plaintiff asserted claims for “harassment, unfair and misleading practices,
deceptive practices, and non-validation of debt,” and claimed that “foreclosure on the
Property would be improper because Defendants are barred from enforcing their lien
3

Case 3:19-cv-03007-£

Document 18 Filed 09/04/20

i

i 4 of 18 PagelD 247

interest by the statute of limitations.” Id. 2 (citing Pet., Ex. 5 (ECF No. 1-1), Tyler, 3:16cv-1836-G-BF (N.D. Tex. June 28, 2016)). Judge Fish accepted the magistrate judge’s
recommendation and dismissed Plaintiffs claims with prejudice as barred by res
judicata. FCR (ECF No. 6), Tyler, 3:i6-cv-i836-G-BF (N.D. Tex. July 20, 2016); Order
(ECF No. 7), Tyler, 3:i6-cv-i836-G-BF (N.D. Tex. Aug. 10,2016); Judgment (ECF No.
8), Tyler, 3:i6-cv-i836-G-BF (N.D. Tex. Aug. 10, 2016).
Then on August 23, 2016, Plaintiff filed yet another lawsuit requesting the
“Courts . .. require [Defendants] to ‘show [her] the Original note” because her “note
ha[d] been bundled and declared slime and sub-prime so many times; ‘flipped, and
dipped, and ripped and skipped and dipped’ by numerous companies that [she
claimed] the real note ... ha[d] been ‘LOST OR DESTROYED.’” Mot. App. 59; Compl.
(ECF No. 3), Tyler, 3:i6-cv-2452-G-BK (N.D. Tex. Aug. 23, 2016). Judge Fish
dismissed Plaintiffs case with prejudice as frivolous under 28 U.S.C. § 1915(e)(2)(B).
Mot. App. 63; Judgment (ECF No. 12), Tyler, 3:i6-cv-2452-G-BK (N.D. Tex. Oct. 5,
2016). Plaintiff again appealed, but the Fifth Circuit denied her motion for leave to
proceed IFP, dismissed her appeal as frivolous, and cautioned her “that future
frivolous or repetitive filings in this court will result in the imposition of sanctions,
including dismissal, monetary sanctions, and restrictions on her ability to file
pleadings in this court or any court subject to this court’s jurisdiction.” Tyler v. Ocwen
Loan Servicing, L.L.C., 710 F. App’x 221, 221 (5th Cir. 2018) (per curiam). Plaintiff
then filed a petition for a writ of certiorari, which the United States Supreme Court
denied. Tyler v. Ocwen Loan Servicing, LLC, 139 S. Ct. 574, 574 (2018); Mot. App.
68.
4

Case 3:19-cv-03007-(

Document 18 Filed 09/04/20

5 of 18 Page ID 248

On November 19, 2019, Plaintiff filed the present suit in the 95th District Court
of Dallas County, Texas. Original Pet. (ECF No. 1-4). Defendants subsequently
removed Plaintiffs lawsuit, which they contend Plaintiff filed to stop the December 3,
2019 foreclosure sale of the Property, to federal court. Notice 6. In her Original
Petition, Plaintiff appears to assert claims against Defendants for “violating the statute
of limitations on foreclosure, fraud, violating the Fair Debt Collections Practices Act,
and violating the Fair Credit Reporting Act in an attempt to preclude Defendants from
exercising their right to foreclose on the Property.” Mot. 8; Original Pet. 4,10,12.
Accordingly, Defendants filed their motion to dismiss, arguing Plaintiffs claims
are barred by res judicata. Mot. 10. The Court granted Plaintiff two extensions of time
to respond to Defendants’ motion and advised that her response was due April 30,
2020. Order (ECF No. 11); Order (ECF No. 13). On April 28, 2020, Plaintiff filed a
“Motion Not to Dismiss my Lawsuit Against Defendants Due to My Home Falls Under
the 4 Year Statute of Limitations,” which the Court construed as Plaintiffs Response.
Resp. (ECF No. 14); Order (ECF No. 15). Defendants filed a reply, and Plaintiff filed a
surreply1, which appears to be an exact duplicate of Defendants’ Reply. Reply (ECF
No. 16); Surreply (ECF No. 17). Thus, Defendants’ motion is ripe for determination.

Plaintiff filed a surreply without the Court’s leave. Therefore, even if Plaintiffs
Surreply were not an exact duplicate of Defendants’ Reply, the Court would not
“consider[ ] the surreply because the local civil rules do not permit a surreply to be
filed without leave of court.” Theller v. US Bank Nat’lAss’n, 2019 WL 7038360, at *1
n.2 (N.D. Tex. Dec. 19, 2019) (Fitzwater, J.) (citing N.D. Tex. L. Civ. R. 7.1(f) (allowing
reply to be filed but not providing for surreply to be filed)).
5

Case 3:19-cv-03007-<!

? Document 18 Filed 09/04/20

L

l 6 of 18 PagelD 249

Legal Standard
When deciding a 12(b)(6) motion for failure to state a claim, the court “accepts
all well-pleaded facts as true, viewing them in the light most favorable to the plaintiff.”
In re Katrina Canal Breaches Litig., 495 F.3d 191, 205 (5th Cir.' 2007) (quotation
marks and citation omitted). To survive Defendants’ motion to dismiss, therefore,
Plaintiffs Original Petition must contain sufficient factual matter to state a claim for
relief that is plausible on its face. BellAtl. Corp. v. Twombly, 550 U.S. 544,570 (2007).
“To be plausible, the complaint’s ‘[f] actual allegations must be enough to raise a right
to relief above the speculative level.’” In re Great Lakes Dredge & Dock Co. LLC, 624
F.3d 201, 210 (5th Cir. 2010) (quoting Twombly, 550 U.S. at 555). This pleading
standard does not require “detailed factual allegations,” but it does demand more than
an unadorned accusation devoid of factual support. Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009) (quoting Twombly, 550 U.S. at 555). “A claim has facial plausibility when
the plaintiff pleads factual content that allows the court to draw the reasonable
inference that the defendant is liable for the misconduct alleged.” Id. (citing Twombly,
550 U.S. at 556). “[A] formulaic recitation of the elements of a cause of action will not
do.” Twombly, 550 U.S. at 555 (citing Papasan v. Allain, 478 U.S. 265, 286 (1986)).
“While legal conclusions can provide the framework of a complaint, they must be
supported by factual allegations.” Iqbal, 556 U.S. at 679. Where the facts do not permit
the court to infer more than the mere possibility of misconduct, the complaint has
stopped short of showing that Plaintiff is plausibly entitled to relief. Id. at 678 (citing
Twombly, 550 U.S. at 556-57).

6

Case 3:19-cv-03007-(

/ Document 18 Filed 09/04/20

f~^7ofl8 PagelD 250

“In determining whether a plaintiffs claims survive a Rule 12(b)(6) motion to
dismiss, the factual information to which the court addresses its inquiry is limited to
(1) the facts set forth in the complaint, (2) documents attached to the complaint, and
(3) matters of which judicial notice maybe taken under Federal Rule of Evidence 201.”
Inclusive Communities Project, Inc. v. Lincoln Prop. Co., 920 F.3d 890, 900 (5th Cir.
2019) (citing Norris v. Hearst Tr., 500 F.3d 454, 461 n.9 (5th Cir. 2007); R2 Invs.
LDCv. Phillips, 401 F.3d 638, 640 n.2 (5th Cir. 2005)). Therefore, “it is clearly proper
in deciding a 12(b)(6) motion to take judicial notice of matters of public record.”
Norris, 500 F.3d at 461 n.9 (citing Cinel v. Connick, 15 F.3d 1338,1343 n.6 (5th Cir.
1994)); see also Fed. R. Evid. 201(b)(2) (permitting courts to judicially notice a fact
that “can be accurately and readily determined from sources whose accuracy cannot
reasonably be questioned”). Defendants attached to their motion filings, orders, and
judgments from Plaintiffs previous lawsuits, as well as a copy of the April 24, 2004
Texas Home Equity Security Instrument. Mot. App. These documents may be
judicially noticed because they are matters of public record and their contents cannot
reasonably be disputed. See Norris, 500 F.3d at 461 n.9; Fed. R. Evid. 201(b)(2).
Analysis
Defendants argue Plaintiffs claims should be dismissed because (1) res judicata
bars Plaintiff from relitigating her claims; (2) her claims fail as a matter of law; and,
(3) since Plaintiff fails to state any claim, she is not entitled to injunctive relief. Mot.
10-16. Plaintiff does not respond to any of Defendants’ arguments. See Resp. Because
res judicata, or claim preclusion, “bars the litigation of claims that either have been
litigated or should have been raised in an earlier suit,” the Court addresses
7

Case 3:19-cv-03007-C

; Document 18 Filed 09/04/20

i

i 8 of 18 PagelD 251

Defendants’ res-judicata argument first. Test Masters Educ. Servs., Inc. v. Singh, 428
F-3d 559, 571 (5th Cir. 2005) (citation omitted).
Defendants contend res judicata bars Plaintiffs claims because she has filed
multiple unsuccessful lawsuits against them concerning foreclosure proceedings
related to the Property. See Mot. 11-13. Res judicata is not expressly listed as a defense
that may be raised in a Rule 12(b) motion; rather, Rule 8(c) includes it as an
affirmative defense. Fed. R. Civ. P. 8(c), 12(b); Bradford v. Law Firm of Gauthier,
Houghtaling & Williams, L.L.P., 696 F. App’x 691, 694 (5th Cir. 2017) (per curiam)
(citing Fed. R. Civ. P. 8(c), 12(b)). But “when a successful affirmative defense appears
on the face of the pleadings,” and matters the Court may judicially notice are available,
“dismissal under Rule 12(b)(6) maybe appropriate.” Kansa Reins. Co. v. Cong. Mortg.
Corp. of Tex., 20 F.3d 1362,1366 (5th Cir. 1994) (citing Clark v. Amoco Prod. Co., 794
F.2d 967, 970 (5th Cir. 1986)); accord Hall v. Hodgkins, 305 F. App’x 224, 227-28
(5th Cir. 2008) (per curiam) (“If, based on the facts pleaded and judicially noticed, a
successful affirmative defense appears, then dismissal under Rule 12(b)(6) is
proper.”). Because res judicata is an affirmative defense, Defendants bear the burden
to plead and prove it. See Taylor v. Sturgell, 553 U.S. 880, 907 (2008) (“Claim
preclusion, like issue preclusion, is an affirmative defense. Ordinarily, it is incumbent
on the defendant to plead and prove such a defense, and we have never recognized
claim preclusion as an exception to that general rule.” (citations omitted)).
“Claim preclusion, or res judicata, bars the litigation of claims that either have
been litigated or should have been raised in an earlier suit.” Petro-Hunt, L.L.C. v.
United States, 365 F.3d 385,395 (5th Cir. 2004) (quoting In re Southmark Corp., 163
8

Case 3:19-cv-03007-(

Document 18 Filed 09/04/20

(

£ 9 of 18 PagelD 252

F.3d 925, 934 (5th Cir. 1999)) (citing Brown v. Felsen, 442 U.S. 127,131 (1979) (“-Res
judicata prevents litigation of all grounds for, or defenses to, recovery that were
previously available to the parties, regardless of whether they were asserted or
determined in the prior proceeding.”)). A claim is precluded when: “(1) the parties are
identical or in privity; (2) the judgment in the prior action was rendered by a court of
competent jurisdiction; (3) the prior action was concluded by a final judgment on the
merits; and (4) the same claim or cause of action was involved in both actions.” Test
Masters Educ. Serus., Inc., 428 F.3d at 571 (citation omitted). The Fifth Circuit uses
the “transactional test” to determine whether two actions involve the same claim or
cause of action. Id. (citation omitted). “Under the transactional test, a prior
judgment’s preclusive effect extends to all rights of the plaintiff ‘with respect to all or
part of the transaction, or series of connected transactions, out of which the [original]
action arose.’” Davis v. Dali. Area Rapid Transit, 383 F.3d 309, 313 (5th Cir. 2004)
(quoting Petro-Hunt, L.L.C., 365 F.3d at 395-96). The facts making up a transaction
are “determined pragmatically”; however, the critical issue is “whether the two actions
are based on the same nucleus of operative facts.” Id. (internal quotation marks and
citation omitted).
The first element of res judicata requires the parties to be identical or in privity.
Hous. Pro. Towing Ass’n v. City ofHous., 812 F.3d 443, 447 (5th Cir. 2016) (quoting
Comer v. Murphy Oil USA, Inc., 718 F.3d 460, 467 (5th Cir. 2013)). Parties are
identical or in privity when both parties to the current litigation were parties to the
prior litigation or in privity with parties to the prior litigation. Jones v. Sheehan,
Young & Culp, P.C., 82 F.3d 1334, 1341 (5th Cir. 1996) (citing Coal, of Cities for
9

Case 3:19-cv-03007-C

■ Document 18 Filed 09/04/20

F

? 10 of 18 Page ID 253

Affordable Util. Rates v. Pub. Util. Comm’n, 798 S.W.2d 560, 563 (Tex. 1990))
(analyzing the elements of res judicata under Texas law, which are the same as the
federal elements); see also Maxwell v. U.S. Bank Nat’l Ass’n, 544 F. App’x 470, 473
(5th Cir. 2013) (per curiam). Plaintiff has filed at least five prior lawsuits involving
identical parties or parties in privity with identical parties that preclude her present
claims.
As set forth above, this is Plaintiffs sixth lawsuit against Ocwen and Deutsche
Bank concerning foreclosure proceedings related to the Property. See Tyler, 3:i5-cv971-M-BK; Tyler, 3:i5-cv-ni7-N-BK; Tyler, 3:i6-cv-i698-L-BF; Tyler, 3:i6-cv-i836G-BF; Tyler, 3:i6-cv-2452-G-BK. The only new party to this lawsuit is PHH; however,
Deutsche Bank is in privity with PHH. “Privity” with respect to res judicata, “is
recognized as a broad concept, which requires [the Court] to look to the surrounding
circumstances to determine whether claim preclusion is justified.” Russell v. SunAm.
Sec., Inc., 962 F.2d 1169,1173 (5th Cir. 1992). In itself, “the term privity... does not
state a reason for either including or excluding a person from the binding effect of a
prior judgment, but rather it represents a legal conclusion that the relationship
between the one who is a party on the record and the non-party is sufficiently close to
afford application of the principle of preclusion. ”Sw. Airlines Co. v. Tex. Int’l Airlines,
Inc., 546 F.2d 84,95 (5th Cir. 1977) (quoting Allan D. Vestal, Preclusion/Res Judicata
Variables: Parties, 50 Iowa L. Rev. 27 (1964)). Specifically,
[a] non-party is in privity with a party for res judicata
purposes in three instances: (1) if he is a successor in
interest to the party’s interest in the property; (2) if he
controlled the prior litigation; or (3) if the party adequately
represented his interests in the prior proceeding.
10

r~\/

Case 3:19-cv-03007-G

Document 18 Filed 09/04/20

11 of 18 PagelD 254

Howell Hydrocarbons, Inc. v. Adams, 897 F.2d 183, 188 (5th Cir. 1990) (citing
Benson & Ford, Inc. v. Wanda Petroleum, 833 F.2d 1172, 1174 (5th Cir. 1987); Sw.
Airlines Co., 546 F.2d at 95)).
Here, Defendants state “PHH ... is in privity with Deutsche Bank as servicer.”
Mot. 11 n.14. Plaintiff does not dispute that PHH is the loan servicer. See Original .
Pet.; Resp. “[T]he relationship between a mortgage holder, a mortgage servicer, and a
mortgage lender’s nominee is generally sufficient to establish the privity needed for
res judicata.” Bellot v. Wells Fargo Bank, NA., 2014 WL 2434170, at *2 (S.D. Tex.
May 29, 2014) (citing Maxwell, 544 F. App’x at 473). Because federal courts have
deemed non-parties succeeding a party’s interest in property and non-parties whose
interests were adequately represented by an original party sufficiently close
relationships to be in privity with the original parties, the Court concludes PHH is in
privity with Deutsche Bank.2 See Sw. Airlines Co., 546 F.2d at 95 (citations omitted);
see also Davis v. Ocwen Loan Servicing LLC, 2020 WL 1910137, at *5 (N.D. Tex. Jan.
27, 2020) (citing Russell, 962 F.2d at 1174) (finding mortgagee and servicer are in
privity), adopted by 2020 WL 880855 (N.D. Tex. Feb. 24,2020). Therefore, Plaintiff s
present lawsuit involves identical parties, or parties in privity with identical parties,
to her five previous lawsuits. Because PHH and Deutsche Bank are in privity, the Court

2 Additionally, in the alternative, Plaintiff has not pleaded any factual allegations
against PHH—PHH only appears in the Original Petition’s caption. See Original Pet.
Accordingly, Plaintiff fails to state any claim against PHH, and PHH is entitled to
dismissal on this ground as well. See Iqbal, 556 U.S. at 679 (“While legal conclusions
can provide the framework of a complaint, they must be supported by factual
allegations.”).
11

Case 3:19-cv-03007-G

' Document 18 Filed 09/04/20

P

"12 of 18 PagelD 255

need not consider whether Ocwen and PHH are also in privity. Accordingly, the first
element is satisfied..
The second element of res judicata requires that a court of competent
jurisdiction rendered the prior actions’ judgments. Comer, 718 F.3d at 467 (citation
omitted). The United States District Court for the Northern District of Texas, a court
of competent jurisdiction, had jurisdiction over and rendered judgment in all five
prior actions. Judgment (ECF No. 21), Tyler, 3:i5-cv-97i-M-BK; Judgment (ECF No.
21), Tyler, 3:i5-cv-ni7-N-BK; Judgment (ECF No. 10), Tyler, 3H6-CV-1698-L-BF;
Judgment (ECF No. 8), Tyler, 3:i6-cv-i836-G-BF; Judgment (ECF No. 12), Tyler,
3:i6-cv-2452-G-BK. Accordingly, the second element is satisfied.
The third element of res judicata requires the prior actions to have been
concluded by a final judgment on the merits. Comer, 718 F.3d at 467 (citation
omitted). “Generally, a federal court’s dismissal with prejudice is a final judgment on
the merits for res judicata purposes.” Stevens v. Bank ofAm., ALA., 587 F. App’x 130,
133 (5th Cir. 2014) (per curiam) (citing Oreck Direct, LLC v. Dyson, Inc., 560 F.3d
398, 401 (5th Cir. 2009)). Plaintiffs March 19, 2015, June 22, 2016, June 27, 2016,
and August 23, 2016 lawsuits concluded in final judgments on the merits. Judgment
(ECF No. 21)3, Tyler, 3:i5-cv-iil7-N-BK; Judgment (ECF No. 10), Tyler, 3:i6-cv1698-L-BF; Judgment (ECF No. 8), Tyler, 3:i6-cv-i836-G-BF; Judgment (ECF No.

3 While this judgment does not itself state the dismissal is “with prejudice,” Judge
Godbey accepted the magistrate judge’s recommendation that the case be dismissed
with prejudice and subsequently entered judgment. FCR 8 (ECF No. 16), Tyler, 3:15cv-1117-N-BK; Order (ECF No. 20), Tyler, 3:i5-cv-ni7-N-BK (N.D. Tex. Sept. 14,
2015); Judgment (ECF No. 21), Tyler, 3:i5-cv-ni7-N-BK.
12

Case 3:19-cv-03007-C

"'N

/ Document 18 Filed 09/04/20

13 of 18 PagelD 256

12), Tyler, 3:i6-cv-2452-G-BK. In fact, Plaintiffs June 22, 2016 and June 27, 2016
lawsuits were dismissed with prejudice because Plaintiff s claims were barred by res
judicata as already litigated in Plaintiffs March 19, 2015 lawsuit. Order (ECF No. 9),
Tyler, 3:i6-cv-i698-L-BF; Order (ECF No. 7), Tyler, 3:i6-cv-i836-G-BF. Accordingly,
the third element is satisfied.
Last, the fourth element of res judicata requires the same claim or cause of
action to have been involved in both the present and prior actions. Comer, 718 F.3d at
467 (citation omitted). But the claims asserted need not be identical—“[r]es judicata
prevents litigation of all grounds for, or defenses to, recovery that were previously
available to the parties, regardless of whether they were asserted or determined in the
prior proceeding.” Brown, 442 U.S. at 131 (citations omitted). As stated, the Fifth
Circuit applies the transactional test to determine “whether two suits involve the same
claim or cause of action.” United States v. Davenport, 484 F.3d 321, 326 (5th Cir.
2007) (citing Petro-Hunt, L.L.C., 365 F.3d at 395). This test examines whether “the
two cases under consideration are based on ‘the same nucleus of operative facts,’. ..
rather than the type of relief requested, substantive theories advanced, or types of
rights asserted.” Id. (citing In re Southmark Corp., 163 F.3d at 934; Agrilectric Power
Partners, Ltd. v. Gen. Elec. Co., 20 F.3d 663, 665 (5th Cir. 1994)); accord Houston
Pro. Towing Ass’n, 812 F.3d at 447. Courts are to consider pragmatically which facts
constitute a “transaction” or “series, giving weight to... whether the facts are related
in time, space, origin, or motivation, whether they form a convenient trial unit, and
whether their treatment as a unit conforms to the parties’ expectations or business
understanding or usage.” Houston Pro. Towing Ass’n, 812 F.3d at 447 (quoting Petro13

Case 3:19-cv-03007-G

$ Document 18 Filed 09/04/20

P

14 of 18 PagelD 257

Hunt, L.L.C., 365 F.3d at 396). “If the cases are based on the same nucleus of operative
facts, the prior judgment’s preclusive effect ‘extends to all rights the original plaintiff
had with respect to all or any part of the transaction, or series of connected
transactions, out of which the [original] action arose.” Davenport, 484 F.3d at 326
(internal quotation marks omitted) (citing Petro-Hunt, L.L.C., 365 F.3d at 395).
Plaintiffs claims in her March 19, 2015, June 22, 2016, June 27, 2016, and August 23,
2016 lawsuits and the present action are based on the same nucleus of operative facts.
Plaintiffs March 19, 2015, June 22, 2016, June 27, 2016, and August 23, 2016
lawsuits all concerned foreclosure proceedings related to the Property. In her March
19, 2015 suit, Plaintiff brought claims for “(1) predatory lending, (2) mortgage fraud,
(3) violations of the [RESPA], (4) robo-signing, and (5) breach of contract,” disputing
Defendants’ ability to foreclose on her home because “the action [was] barred by the
statute of limitations and . . . Defendants fraudulently breached the parties’ contract
and Defendants’ duty of good faith and fair dealing.” FCR 1-2 (ECF No. 16), Tyler,
3:i5-cv-iii7-N-BK. In her June 22 and June 27,2016 suits, Plaintiff alleged claims for
“harassment, false or misleading representations, unfair practices, illegal attempt to
foreclose,

deceptive

practices, violations of [RESPA],

and violations

of

recommendations made by courts, agencies, and legal institutions.” FCR 1 (ECF No.
8), Tyler, 3:i6-cv-i698-L-BF; FCR l (ECF No. 6), Tyler, 3:i6-cv-i836-G-BF. In her
August 23,2016 lawsuit, Plaintiff claimed that Defendants did not legally own her title
or Deed of Trust and requested the “Courts or Judge... require them to ‘show me the
Original note, AND NOT A ZEROX [sic] COPY, AND TO PROVE THIS ORIGINAL IS
NOT A MANUFACTURED FRAUDULENT DOCUMENT!” FCR l (ECF No. 9), Tyler,
14

Case 3:19-cv-03007-G

Document 18 Filed 09/04/20

F

] 15 of 18 PagelD 258

3:i6-cv-2452-G-BK (N.D. Tex. Sept. 13, 2016) (quoting Compl. 1 (ECF No. 3), Tyler,
3:i6-cv-2452-G-BK). She also asserted “[i]f the bank or Ocwen, a collection agency,
can’t produce my original mortgage note, title or deed, then,... they don’t have right
[sic] to demand payment. . . [and] foreclose.” Id. (quoting Br. Supp. Compl. 1 (ECF
No. 4), Tyler, 3:i6-cv-2452-G-BK (N.D. Tex. Aug. 23, 2016)). Now, Plaintiff brings
claims against Defendants for “violating the statute of limitations on foreclosure,
fraud, violating the Fair Debt Collections Practices Act, and violating the Fair Credit
Reporting Act in an attempt to preclude Defendants from exercising their right to
foreclose on the Property.” Mot. 8; Original Pet. 4,10,12.
The Court finds Plaintiffs claims in these four prior lawsuits are based on the
same nucleus of operative facts as Plaintiffs claims in the present lawsuit. Plaintiff has
already brought fraud, statute-of-limitations, and abusive-collections-practices
claims against Defendants. And though the Court has not previously addressed
Plaintiffs claims for violations of the Fair Debt Collection Practices Act or the Fair
Credit Reporting Act, Plaintiff could have brought these claims in any of her four
previous lawsuits. See Petro-Hunt, L.L.C., 365 F.3d at 395 (citations omitted) (“Claim
preclusion, or res judicata, bars the litigation of claims that either have been litigated
or should have been raised in an earlier suit.”). Accordingly, Plaintiffs present lawsuit
concerns the same claims as her previous lawsuits, and the fourth element is satisfied.
Res judicata bars Plaintiffs claims in this lawsuit because Plaintiff has filed at
least four previous lawsuits involving identical parties, or parties with whom PHH is
in privity, that resulted in a final judgment on the merits, rendered by a court of
competent jurisdiction, concerning the same claims. See Test Masters Educ. Servs.,
15

Case 3:19-cv-03007-G

* Document 18 Filed 09/04/20

P

’16 of 18 PagelD 259

Inc., 428 F.3d at 571. And because res judicata bars Plaintiffs claims, Defendants are
entitled to dismissal. Therefore, the Court pretermits consideration of Defendants’
remaining dismissal arguments.
Sanctions
Courts possess the inherent power “to protect the efficient and orderly
administration of justice and ... to command respect for the court’s orders,
judgments, procedures, and authority.” In re Stone, 986 F.2d 898, 902 (5th Cir. 1993)
(per curiam) (citing Roadway Express, Inc., v. Piper, 447 U.S. 752, 764 (1980)).
Included in this inherent power is “the power to levy sanctions in response to abusive
litigation practices.” Id. (citing Roadway Express, Inc., 447 U.S. at 766; Link v.
Wabash R.R., 370 U.S. 626, 630-31 (1962)). Sanctions maybe appropriate when a pro
se litigant has a history of submitting multiple frivolous claims. See Fed. R. Civ. P. 11;
Mendoza v. Lynaugh, 989 F.2d 191,195-97 (5th Cir. 1993)- Pro se litigants have “no
license to harass others, clog the judicial machinery with meritless litigation, and
abuse already overloaded court dockets.” Farguson v. MBank Hous., NA., 808 F.2d
358, 359 (5th Cir. 1986). A court may impose a prefiling sanction on a vexatious
litigant, if the following factors weigh in favor of doing so:
(1) the party’s history of litigation, in particular whether he
has filed vexatious, harassing, or duplicative lawsuits; (2)
whether the party had a good faith basis for pursuing the
litigation, or simply intended to harass; (3) the extent of the
burden on the courts and other parties resulting from the
party’s filings; and (4) the adequacy of alternative
sanctions.
Baum v. Blue Moon Ventures, LLC, 513 F.3d 181,189 (5th Cir. 2008) (quoting Cromer
v. KraftFoods N. Am., Inc., 390 F.3d 812, 818 (4th Cir. 2004)).
16

Case 3:19-cv-03007-

<n

Document 18 Filed 09/04/20

p;r~^17ofl8 PagelD 260

This is PlaintifFs sixth lawsuit challenging foreclosure proceedings related to
the Property. Plaintiffs first lawsuit was dismissed without prejudice as duplicative of
a concurrently pending lawsuit, Judgment (ECF No. 21), Tyler, 3:i5-ev-97i-M-BK,
and her remaining lawsuits were dismissed on the merits. Judgment (ECF No. 21),
Tyler, 3:i5-cv-ni7-N-BK; Judgment (ECF No. 10), Tyler, 3:i6-cv-i698-L-BF;
Judgment (ECF No. 8), Tyler, 3:i6-cv-i836-G-BF; Judgment (ECF No. 12), Tyler,
3:i6-cv-2452-G-BK. Plaintiffs claims lack merit, and the Court finds her lawsuits
duplicative, harassing, and burdensome to the Court and the parties who must defend
against them. Additionally, the Fifth Circuit has already warned Plaintiff “that future
frivolous or repetitive filings in [that] court will result in the imposition of sanctions,
including dismissal, monetary sanctions, and restrictions on her ability to file
pleadings in [that] court or any court subject to [the Fifth Circuit’s] jurisdiction.”
Tyler, 710 F. App’x at 221. However, because Plaintiff has not previously been warned
by this Court, the District Court should warn Plaintiff that she could be subject to
sanctions, including monetary sanctions and an injunction preventing her from filing
additional lawsuits relating to the Property, if she persists in filing duplicative and
vexatious lawsuits.
Recommendation
The District Court should GRANT Defendants’ motion to dismiss (ECF No. 7)
on res judicata grounds and DISMISS Plaintiffs claims against them with prejudice.
Further, the District Court should WARN Plaintiff that she could be subject to
additional sanctions if she persists in filing duplicative and vexatious lawsuits.

17

Case 3:19-cv-03007-C?

’’Document 18 Filed 09/04/20

P

18 of 18 PagelD 261

SO RECOMMENDED.
September 4, 2020.
REBECCA RUTHERFORD
UNITED STATES MAGISTRATE JUDGE

INSTRUCTIONS FOR SERVICE AND
NOTICE OF RIGHT TO APPEAL/OBJECT
The United States District Clerk is directed to serve a true copy of these
findings, conclusions, and recommendation on the parties. Pursuant to Title 28,
United States Code, Section 636(b)(1), any party who desires to object to these
findings, conclusions, and recommendation must serve and file written objections
within 14 days after being served with a copy. A party filing objections must
specifically identity those findings, conclusions, or recommendation to which
objections are being made. The District Court need not consider frivolous, conclusory,
or general objections. A party’s failure to file such written objections to these proposed
findings, conclusions, and recommendation will bar that party from a de novo
determination by the District Court. See Thomas v. Am, 474 U.S. 140, 150 (1985).
Additionally, any failure to file written objections to the findings, conclusions, and
recommendation within 14 days after being served with a copy will bar the aggrieved
party from appealing the factual findings and legal conclusions of the Magistrate
Judge that are accepted by the District Court, except upon grounds of plain error. See
Douglass v. United Servs. Auto. Ass’n, 79 F.sd 1415,1417 (5th Cir. 1996) (en banc).

18

Additional material
from this filing is
available in the
Clerk's Office.

